       TIMELY ACTIONS NEEDED
TO ADVANCE THE NEXT GENERATION AIR
      TRANSPORTATION SYSTEM
      Federal Aviation Administration
       Report Number: AV-2010-068
        Date Issued: June 16, 2010
           U.S. Department of
                                                         Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Timely Actions Needed To Advance                             Date:    June 16, 2010
           the Next Generation Air Transportation System
           Federal Aviation Administration
           Report Number AV-2010-068

  From:    Lou E. Dixon                                                      Reply to
                                                                             Attn. of:   JA-10
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Aviation Administrator

           The National Airspace System handles almost 50,000 flights per day and more
           than 700 million passengers per year. Historically, steadily increasing levels of air
           traffic have resulted in increasing delays. While the current demand for air travel
           is down, it is expected to return, which will require better air traffic management
           to reduce congestion and decrease delays. To meet this anticipated demand, the
           Federal Aviation Administration (FAA) is developing the Next Generation Air
           Transportation System (NextGen) to replace the current ground-based air traffic
           control system with a satellite-based system. FAA’s goal for NextGen—to create
           a system that will handle up to three times more air traffic and reduce FAA
           operating costs—is ambitious and involves multibillion-dollar investments from
           both the Government and the airline industry. Since the effort began in 2005, we
           have repeatedly reported on the cost and schedule risks and operational and
           management challenges NextGen faces. These concerns prompted us to identify
           NextGen as one of the Department’s top management challenges. 1

           The Chairmen and Ranking Members of the House Committee on Transportation
           and Infrastructure and Subcommittee on Aviation requested that we examine
           FAA’s progress in transitioning to NextGen. This report provides the results of
           our review. Specifically, it addresses (1) key actions needed to successfully
           implement NextGen, (2) FAA and partner agencies’ progress in leveraging
           resources and budgets, and (3) FAA’s efforts to engage the private sector in
           shaping NextGen policy issues. In addition, we were asked to report on FAA’s

           1
               OIG Report Number PT-2010-008, “DOT Top Management Challenges for FY 2010,” November 16, 2009.
               OIG reports and testimonies are available on our website: www.oig.dot.gov.
                                                                                     2


progress in implementing our past NextGen-related recommendations, which is
detailed at exhibit A. We conducted this performance audit from May 2008 to
March 2010 in accordance with generally accepted government auditing standards.
See exhibit B for a more detailed discussion of our scope and methodology.

RESULTS IN BRIEF
A number of critical actions are still needed to move NextGen from planning to
implementation. FAA has yet to establish firm requirements to help guide cost
and schedule estimates for adjustments to existing projects or new acquisitions. In
addition, FAA has not modified its Acquisition Management System (AMS) so
that it can gauge the impact of a single NextGen investment on multiple initiatives
or manage efforts in an integrated way. FAA’s tendency to focus on individual
programs has also limited its ability to assess how it will concurrently implement
multiple, interdependent programs and mitigate any associated risks. Finally,
although FAA considers NextGen to be one of the most complex systems ever
developed by the U.S. Government, FAA has not yet acquired the necessary skill
sets and expertise to successfully implement NextGen. Not taking timely action
on these issues now could delay FAA’s plans to transition to NextGen.

FAA also faces challenges in developing an integrated budget to help ensure it
leverages the right resources, pursues realistic goals, and secures adequate funding
for projects. A multi-agency approach that allows for coordinating diverse
research and aligning other agencies’ resources to develop NextGen is not only
required by law, but also important since FAA conducts very little long-term air
traffic management research. However, with the exception of the National
Aeronautics and Space Administration (NASA), partner agencies have not
adjusted their research and development plans, existing budgets, or program
requirements specifically to accommodate NextGen efforts. Additionally, FAA is
missing opportunities to leverage other partner agencies’ research and
development efforts that could significantly enhance NextGen development and
reduce costs. For example, FAA has yet to inventory the Department of Defense’s
(DOD) vast research base for NextGen or fully leverage ongoing work for an
accurate satellite-based precision landing system and net centric operations.

While FAA has made some progress in engaging the private sector to develop
NextGen and shape NextGen policy issues, several challenges remain. For
example, FAA is working with a Government/industry task force to gain
consensus on NextGen operational improvements that can be achieved in the
midterm (2012 to 2018), but significant policy issues remain unresolved. Other
FAA efforts also face challenges, such as better defining the role of the NextGen
Institute. FAA established the Institute to ensure access to private sector expertise,
but it has not lived up to expectations due to a lack of focus and clear priorities for
its working groups. Further, while FAA has involved industry in NextGen
                                                                                                           3


demonstration projects to validate concepts and procedures, stakeholders are
concerned that these projects are not well coordinated or outcome-focused.

As part of this report, we are making recommendations to FAA to reduce
implementation risks, strengthen the multi-agency approach, and improve
coordination with the private sector in NextGen policy matters.

BACKGROUND
In 2003, Congress mandated 2 that FAA establish the Joint Planning and
Development Office (JPDO) and that it create and carry out plans for
implementing NextGen by 2025. Congress also mandated that the JPDO
coordinate diverse research efforts of other Federal agencies to reduce the cost and
risks of implementing NextGen by leveraging ongoing development efforts by
partner agencies. These include DOD, the Department of Commerce, the
Department of Homeland Security (DHS), as well as NASA. In developing and
carrying out its plans, the JPDO was also tasked to consult with the public and
ensure the participation of experts from the private sector, including
representatives of commercial aviation, labor groups, and air traffic controllers.

We have testified on several occasions that FAA must make several critical
decisions over the next several years to keep NextGen on track. 3 Specifically, we
have noted that the cost of NextGen remains uncertain and much work remains to
refine requirements and costs; align diverse agency budgets; and set realistic
expectations for airspace users with respect to milestones, equipage, and
anticipated benefits. In October 2009, we testified that FAA’s transition from
NextGen planning to implementation poses a number of operational and
management challenges that must be addressed in the near and midterm.
Additionally, our past audit reports have highlighted several areas of risk, such as
complex software and development and systems integration issues, that FAA
needs to address, and we recommended several actions to reduce cost and
schedule risks. 4

CRITICAL ACTIONS NEEDED TO SUCCESSFULLY IMPLEMENT
NEXTGEN
FAA has made some progress in developing and shaping a vision for NextGen in
the midterm and is working with stakeholders to develop priorities for the next

2
    Vision 100—Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).
3
    OIG Testimony Number CC-2006-065, “Perspectives on the Progress and Actions Needed To Address the Next
    Generation Air Transportation System,” July 25, 2006. OIG Testimony Number CC-2009-044, “Federal Aviation
    Administration: Actions Needed To Achieve Mid-Term NextGen Goals,” March 18, 2009.
4
    OIG Report Number AV-2005-031, “Joint Planning and Development Office: Actions Needed To Reduce Risks
    With the Next Generation Air Transportation System,” February 12, 2007.
                                                                                4


2 to 3 years. However, FAA has yet to take timely action in a number of critical
areas needed to move NextGen from planning to implementation. Specifically,
FAA has yet to (1) establish firm requirements or reliable costs and schedules for
adjustments to existing projects or new NextGen acquisitions, (2) modify its
Acquisition Management System so it can manage initiatives as portfolios, (3)
address key safety concerns related to increased throughput at congested airports
and mixed equipage, (4) assess the ability to implement multiple capabilities
concurrently, or (5) establish a viable plan to secure the expertise needed to
manage a NextGen-driven workforce.

FAA Has Yet To Establish Firm NextGen Requirements for New and
Existing Systems
FAA has updated its enterprise architecture for the National Airspace System that
includes “road maps” for automation, communications, navigation, aircraft, and
surveillance planned with NextGen. However, FAA has not established firm
requirements that can be used to develop the cost and schedule estimates for
modifications to existing programs or new acquisitions, such as performance
attributes for systems that controllers will rely on to manage traffic at high
altitudes and in the vicinity of airports.

The current architecture identifies more than 340 key decisions that FAA must
make to reach envisioned mid-term capabilities. The Agency’s most recent
roadmap identifies a total of 51 decision points for fiscal year (FY) 2009.
However, FAA only made a total of 11 decisions. One key decision that FAA
failed to make was the Investment Analysis (projected program cost) for the
NextGen Weather Processor, which is part of the Agency’s efforts to significantly
improve how weather information is used to reduce delays. FAA scheduled this
decision for the fourth quarter of 2008 but failed to meet the milestone. FAA
officials acknowledged that this could impact scheduling for other investment
decisions for the program and delay NextGen weather systems.

According to FAA, pending decisions on several key design issues will determine
NextGen capabilities, timing, and costs. These include:

 • Air/Ground Division of Responsibility: FAA needs to decide how much
   responsibility will be delegated to pilots in the cockpit and what duties will
   remain with controllers and FAA ground systems for tracking aircraft.

 • Level of Automation: The decision on the degree of human involvement in
   traffic management and separating aircraft is linked to the outcome of the
   division of responsibility between aircrew and controllers (and related ground
   systems). Possible options range from today’s largely manual flight
                                                                                                           5


      management to a largely automated system centered on machine-to-machine
      exchanges with little controller involvement.

    • Facilities Consolidation: A major determination of both capital and operating
      costs for NextGen is the degree to which the Agency eliminates or consolidates
      FAA facilities. FAA must make critical decisions on facility requirements that
      will significantly impact the type and number of systems needed to support
      NextGen.

In addition, FAA must still make several critical decisions for other core
capabilities that will ultimately affect the budget and pace of NextGen in the
midterm (see table 1).

    Table 1. Examples of Critical Decisions Still Needed for Core Capabilities
                 Area                                  Critical Decisions Needed
    Terminal Modernization              FAA recently approved dividing the Terminal Automation
                                        Modernization Replacement (TAMR) Phase 3 program into two
                                        segments. Segment 1 addresses modernization of existing
                                        terminal automation systems for the 2010 to 2013 timeframe to
                                        enable near-term NextGen capabilities at selected sites.
                                        Segment 2 will address all terminal systems for the mid-term
                                        beyond 2013. FAA plans Final Investment Decisions for
                                        Segments 1 and 2 for September 2010 and FY 2012,
                                        respectively. Delays in terminal automation modernization
                                        decisions could increase risk to implementation of NextGen
                                        capabilities.
 En Route Automation                    FAA expects to decide on capabilities for the remaining two
                                        software releases planned for the En Route Automation
                                        Modernization (ERAM) program. Delays could impact the
                                        schedule for incorporating future capabilities, such as the Data
                                        Communications and the System Wide Information
                                        Management efforts.
 Data Communications                    FAA plans to make the Final Investment Decision for the first
                                        segment of Data Communications in FY 2011. Costs are
                                        uncertain, but the Segment 1 investment decision is expected to
                                        include $400 million specifically for upgrades to ERAM.
Source: OIG analysis of FAA National Airspace System enterprise architecture roadmaps
Note: Cost projections for FAA projects have not been baselined.

In April 2008, 5 we recommended that FAA conduct a “gap analysis” of the
National Airspace System to determine what would be required to transition from
the existing architecture to NextGen in the midterm (2012 through 2018). FAA’s
work thus far shows that major gaps exist with respect to automation, such as new
capabilities that will allow controllers to better manage traffic. According to FAA,


5
    OIG Report Number AV-2008-049, “Air Traffic Control Modernization: FAA Faces Challenges in Managing
    Ongoing Projects, Sustaining Existing Facilities, and Introducing New Capabilities,” April 14, 2008.
                                                                                                                   6


it may take 1 to 2 years to develop requirements for new automation systems for
the mid-term timeframe.

Continued delays, however, in developing requirements and in making key
program decisions will slow NextGen’s progress. A recent NextGen portfolio
analysis, 6 commissioned by the JPDO, already shows that some NextGen
automated air and ground capabilities originally planned for 2025 may not be
implemented until 2035 or later and could cost the Government and airspace users
significantly more than the projected cost estimate of $40 billion.

FAA’s Acquisition Management System Is Not Structured To Manage
NextGen Mid-Term Initiatives as Portfolios
FAA will need to synchronize the development and implementation of multiple
NextGen initiatives. NextGen will require greater integration of functions,
interfaces, and capabilities of systems that are funded through multiple accounts to
achieve expected benefits. Our work and an FAA study 7 show that FAA’s current
AMS—which establishes policy and guidance for lifecycle acquisition
management—was not designed for managing NextGen investments as portfolios.
Rather, FAA’s acquisition system focuses on individual programs in line with the
Office of Management and Budget guidance for program-specific budgets and
baselines. Focusing on individual programs rather than the portfolio creates the
risk that key strategic alternatives may not be considered or funded.

The FAA study also points out that although a benefit analysis is required for each
acquisition program under the AMS, this analysis does not consider benefits
involving integration between multiple programs. This creates a significant
concern for NextGen programs because overall benefits and capabilities are
cumulative and depend on multiple programs to achieve a new capability. For
example, integration of NextGen programs, such as Data Communications 8 and
Automatic Dependent Surveillance-Broadcast (ADS-B), 9 depends on the timely
implementation of the En Route Automation Modernization (ERAM) 10 program.
ERAM is critical to both programs due to, among other things, integration
requirements for data sharing. FAA recently began adjusting the AMS by

6
     The analysis is referred to as the NextGen portfolio or “trade space” analysis. FAA is continuing to update and
     revise the analysis. The study sought to examine the costs, risks, and benefits of the JPDO Integrated Work Plan
     targeted for 2025.
7
     “Independent Assessment of FAA Acquisition Management System,” April 22, 2008.
8
     Data Communications will provide comprehensive data connectivity—including ground automation message
     generation and receipt, message routing and transmission, and aircraft avionics requirements—and will automate
     repetitive tasks and supplement voice communications with less workload-intensive data communications.
9
     ADS-B is a surveillance system that uses information from satellite-based systems to identify and track aircraft
     positions.
10
     ERAM is a $2.1 billion automation program that will replace the current HOST computer systems in 20 of FAA’s
     En Route Centers that control high-altitude traffic in the National Airspace System. The system processes flight
     radar data, provides communications and generates display data to air traffic controllers.
                                                                                                                     7


establishing the Acquisition Executive Board, which the Agency believes will
better address portfolio decision making within the AMS. Given the complexity
of NextGen and the interdependencies of efforts, FAA recognizes that additional
adjustments to the AMS will be required to manage the mid-term initiatives as
portfolios. FAA has begun and is planning modifications to transition AMS to
portfolio management.

FAA Has Not Fully Addressed Key Safety Concerns That Impact New
Systems and Procedures
Before FAA can move from the current air traffic control system to NextGen, it
must address key safety concerns. First, FAA must determine whether throughput
at already congested airports can be increased. This is particularly important for
airports with complex runway configurations, including closely spaced parallel or
converging/intersecting runways (e.g., John F. Kennedy, Las Vegas, and Newark).
Updated safety assessments, some of which are decades old, are also needed to
ensure unanticipated hazards are not introduced, particularly during periods of low
visibility. FAA points out that safety assessments are underway.

Second, FAA must develop plans to mitigate differences with aircraft equipage.
Mixed equipage presents significant safety concerns for NextGen, as controllers
will be expected to concurrently manage aircraft with different capabilities and
procedures. FAA has acknowledged that until clearly defined procedures and
support tools are in place, safety concerns could limit the value of new equipment
on aircraft in a mixed-equipage environment. FAA points out that increased
reliance on automation that supports the use of new avionics could degrade
controllers’ skill levels, which may in turn impact safety if the new automation
fails.

As we testified in July 2009, 11 a prolonged mixed-equipage environment will
likely increase—not decrease—controller workload. Experts believe that between
80 and 100 percent of aircraft at any given location will need to be equipped with
new NextGen systems to realize benefits and limit the potential for introducing
new hazards. Assessing and addressing the impacts of mixed equipage are
important for several mid-term efforts, including performance-based navigation,12
Data Communications for controllers and pilots, and ADS-B. To help ensure
mixed equipage does not introduce safety risks, FAA will need to adjust existing
air traffic control systems and develop training for controllers and pilots. FAA

11
     OIG Testimony Number CC-2009-086, “Challenges in Implementing Performance-Based Navigation in the U.S. Air
     Transportation System,” July 29, 2009.
12
     FAA defines performance-based navigation (PBN) as a framework for defining navigation requirements that can be
     applied to air traffic route, instrument procedure, or defined airspace. PBN comprises both Area Navigation (RNAV)
     and Required Navigation Performance (RNP) and provides a basis for the design and implementation of flight paths
     that can enhance capacity.
                                                                                                                 8


may also have to segregate specific airspace for aircraft with the required avionics
to take advantage of the new capabilities.

FAA Lacks an Understanding of Risks Associated with Concurrently
Implementing Multiple Capabilities
FAA has yet to determine what risks are associated with implementing multiple
NextGen capabilities concurrently. To do so, FAA must examine critical
interdependencies between systems, procedures, and training programs needed to
deliver NextGen capabilities. FAA acknowledges that implementation decisions
in the past were made on individual programs and that those decisions were not
necessarily optimal from an operational change perspective. Therefore, FAA has
staggered the implementation of key NextGen capabilities, such as data link
communications, to wait for the completion of ERAM in 2012.

Conducting the risk assessment is time-critical because FAA plans to hire and
train nearly 15,000 new controllers over the next decade to replace those who are
now retiring. This new controller workforce will not only have to work with
existing systems and procedures but will also be required at some point to
transition to new roles and responsibilities—from controlling to managing air
traffic—as envisioned for NextGen. Currently, about one-third of the controller
workforce is composed of controllers in training.

Since 2004, we have issued a series of reports focusing on FAA’s programs for
developing the next generation air traffic controller workforce. FAA is taking
steps to address our concerns, such as appointing a national director for training;
however, our current work shows that continued management attention is still
needed. Given the current state of the controller workforce and interdependencies
between systems and procedures, FAA and airspace users need to establish
realistic transition benchmarks that point to when new controller and pilot training,
aircraft avionics and ground systems, and procedures must be in place at specific
locations.

FAA Does Not Have the Necessary Skill Sets and Expertise To
Manage and Execute NextGen
According to FAA, NextGen is one of the most complex systems ever developed
by the U.S. Government. In response to a recommendation we made in
February 2007, FAA commissioned the National Academy of Public
Administration (NAPA) to assess the skill sets needed for NextGen
implementation. In its September 2008 report, NAPA identified 26 competencies
where FAA lacks the skill sets to successfully transition to NextGen. 13 These

13
     Report by a panel of the National Academy of Public Administration, “Identifying the Workforce to Respond to a
     National Imperative - The Next Generation Air Transportation System (NextGen),” September 2008.
                                                                                                                   9


include program management, software development, contract administration, and
systems engineering with an understanding of human factors considerations.

FAA recently completed an initial acquisition workforce plan to address
workforce recommendations in the NAPA study—an important first step.
However, the plan requires more development and clarification to be useful. For
example, the plan is not specific with respect to how or when FAA will actually
secure the necessary skill sets and expertise. FAA has estimated that it will
require approximately 350 new hires through fiscal year 2011. We have work
underway to examine FAA’s plans for determining its acquisition workforce needs
and FAA’s progress in addressing them.

FAA HAS MADE LIMITED PROGRESS IN LEVERAGING
PARTNER AGENCIES’ RESOURCES TO ACHIEVE NEXTGEN
GOALS
With the exception of NASA, partner agencies have not adjusted their budgets and
ongoing research and development programs to demonstrate a relationship to
NextGen efforts. The law that created the JPDO mandated a multi-agency
approach to develop and implement NextGen and tasked the JPDO with
coordinating research and development efforts among Federal partner agencies.
However, FAA has yet to take full advantage of partner agencies’ research base—
particularly DOD’s—which could reduce risks and costs of NextGen
development.

Most Partner Agencies Have Not Adjusted Budgets or Made Program
Changes To Support NextGen
FAA and the JPDO have been working on a NextGen integrated budget document
(similar to the Office of Management and Budget Exhibit 300) 14 for more than
4 years with little to show for the effort. The JPDO, however, does not have the
authority to adjust or redirect the research budgets or actions of other agencies.
While partner agencies are generally supportive of NextGen, most have not
adjusted their research and development budgets and programs or changed
requirements specifically to accommodate NextGen efforts. Without a completed
integrated budget document, it will be difficult for FAA and Congress to track
involvement of partner agencies in NextGen and determine if JPDO is leveraging
the right research, whether funding is adequate for specific efforts, or how projects
will improve the air transportation system and at what cost.



14
     The Office of Management and Budget Exhibit 300 is designed to ensure that the business case for investments are
     made and tied to agency mission statements and long-term goals.
                                                                                                             10


We analyzed the JPDO’s most recent efforts to develop a NextGen integrated
budget. While the budget identifies NextGen-specific funding from FAA, NASA,
and a token amount from Commerce, it does not yet quantify investments at DOD
or DHS or the value of any research or capabilities that FAA and the JPDO could
ultimately leverage for NextGen (see table 2).

     Table 2. Partner Agency Combined NextGen Capital and Research and
      Development Budgets, Fiscal Years 2008 – 2013 (Dollars in Millions)

                                     NextGen Investments by Agency
                             2008      2009      2010        2011        2012         2013          Total
       Federal Aviation
        Administration        $212      $688     $1059      $1131        $1301        $1566          $5957
        Department of
         Commerce              $3        $5        $5         $5           $5           $5            $28

     National Aeronautics
          and Space
        Administration        $284      $285      $284       $287         $290         $297          $1727

        Department of
      Homeland Security                                     To be determined

 Department of Defense                                      To be determined
 Source: OIG Analysis of Exhibit 300 - Next Generation Air Transportation System, September 10, 2007, submission

The lack of progress with the integrated budget document is traceable to a number
of factors, which include complexity, the lack of a common method to identify
NextGen-related budget items, and FAA’s focus on running and maintaining the
existing system. FAA officials recently stated that this responsibility has been
elevated to the Department of Transportation’s NextGen Senior Advisor for action
by the Office of the Secretary. The Secretary’s office has involved the Senior
Policy Committee to solicit the partner agencies for data and to review all data
submitted.

Significant Research and Development Issues Remain Unresolved
Ensuring partner agency initiatives are aligned with the operational improvements
identified in the Integrated Work Plan is key to NextGen’s success. A multi-
agency approach for developing NextGen is critical because FAA conducts very
little developmental air traffic research and historically has relied on NASA for its
long-term air traffic management research needs. NASA is the lead agency for
43 out of 203 research and development activities identified in the NextGen
Integrated Work Plan. 15 Initially, NASA planned to limit its NextGen work solely


15
     The NextGen Integrated Work Plan (IWP) is intended to be a master planning document that depicts the
     collaborative efforts of the stakeholders responsible for implementing the NextGen vision.
                                                                                                                    11


to fundamental research, 16 requiring FAA to assume a larger than expected role to
complete research and development for use in NextGen initiatives. However,
NASA recently revisited this policy and, according to officials, is now tailoring its
efforts on a case-by-case basis and is going beyond fundamental research to
development and even to the prototype stage if warranted.

Coordination between FAA and its other partner agencies, however, has been
lacking in several areas. A JPDO assessment also found similar research and
development gaps that could materially affect the cost and schedule for NextGen.

     • Synchronizing Weather-Related Applications. The Department of
       Commerce’s 4D Weather Cube is expected to provide a common picture of
       weather for the entire country that airspace users may view and apply directly
       in flight route planning and automated decision aides for traffic flow
       management. 17 However, according to the JPDO, FAA and Commerce
       disagree on how to synchronize national weather-related applications of
       observed, forecast, and disseminated data, which could delay the Weather
       Cube’s planned 2013 implementation.

       We also found that Commerce’s work on its 4D Weather Cube focuses
       exclusively on its own requirements. According to officials from Commerce’s
       National Oceanic and Atmospheric Administration (NOAA), NextGen-specific
       requirements are considered to be “extras,” and NOAA expects FAA to fund or
       reimburse its costs related to NextGen development. Recognizing the need for
       better communication and coordination on implementing NextGen weather
       systems, the JPDO Board 18 has designated the NextGen Executive Weather
       Panel, chaired by the FAA Senior Vice President for NextGen and Operations
       Planning and the NOAA Assistant Administrator for Weather Services, to act
       as primary policy- and decision-makers. While this is an important first step,
       FAA has not defined requirements for the 4D Weather Cube or established a
       formal agreement between the agencies on NextGen weather systems.



16
     NASA officials define “fundamental research” as continued long-term, scientific study in areas such as physics,
     chemistry, materials, experimental techniques, and computational techniques that lead to a furthering of
     understanding of underlying principles that form the foundation of the core aeronautics disciplines as well as
     research that integrates the knowledge gained in these core areas to significantly enhance capabilities, tools, and
     technologies at the disciplinary (e.g., aerodynamics, combustion, and trajectory prediction uncertainty) and
     multidisciplinary (e.g., airframe design, engine design, and airspace modeling and simulation) levels.
17
     The Department of Commerce has the lead role in developing the single authoritative source of legally required
     weather information for National Airspace System operations. The 4D Weather Cube is to be a distributed, national
     database of gridded and interpolated weather observations and automated analyses, scaled consistently over time for
     any location above the continental United States. It is expected to provide observations with respect to latitude,
     longitude, altitude, and time.
18
     An adjunct to the Senior Policy Committee, the JPDO Board consists of senior representatives from participating
     Federal agencies.
                                                                                                                    12


     • Coordinating Joint Surveillance Requirements with DOD and DHS. A
       key concern of DOD and DHS is the continuing need to track aircraft—a
       capability currently provided by FAA—to maintain security coverage for the
       United States, such as tracking aircraft designated as non-cooperative targets.
       With the implementation of ADS-B, FAA has plans to decommission an
       undetermined number of radar 19 that it will no longer need to conduct National
       Airspace System operations. If DOD or DHS determine that some of these
       secondary radar must remain in service to ensure security, they may need to
       assume maintenance and replacement costs. However, DOD and DHS have
       not established budgets or programs specifically identified for NextGen.
       Failure to coordinate and agree on surveillance requirements increases the
       potential for duplicative efforts or gaps in NextGen surveillance and security
       capabilities.

     • Researching NextGen’s Human Factors Impact on Controllers and Pilots.
       The NextGen concept of operations calls for significant changes to the roles of
       controllers and pilots. A focused “human factors” research effort on the
       impact of such changes, such as how highly automated systems will affect
       controllers, will ensure that new concepts and technologies can be safely
       implemented. However, FAA continues to lack a cross-agency research plan
       that (1) establishes an agreed-upon set of initial focus areas for research,
       (2) inventories existing facilities for research, and (3) capitalizes on past and
       current research.      FAA’s inadequate attention to such research when
       implementing the Standard Terminal Automation Replacement System
       (STARS) resulted in significant cost increases and schedule slips.

     • Introducing Unmanned Aircraft Systems into the National Airspace
       System and NextGen. Increased use of unmanned aircraft to perform
       missions not considered for manned aircraft has a number of safety
       implications for domestic airspace operations and NextGen. Current UAS are
       unable to sense and avoid traffic, creating significant risk of collisions in
       populated areas or busy airspace. While there are no established cross-agency
       requirements for UAS operations in the National Airspace System, the
       evolving use of this technology has become an important issue for FAA, DOD,
       DHS, and other agencies. Accordingly, it will be important to include UAS-
       related issues as part of NextGen development. FAA currently authorizes
       Government UAS operations on a limited basis after conducting a case-by-case
       safety review. However, the JPDO’s annual cross-agency gap analyses have
       repeatedly stated the need for agencies to work toward developing UAS
       requirements, standards, procedures, and avionics. NASA has included an
       additional $30 million a year in its fiscal 2011 budget request to develop
19
     We are referring to secondary radar that operate on the coded reply sent from the airborne radio beacon transponder
     to an aircraft in response to an interrogation sent from the ground station.
                                                                                                                    13


       technologies that will allow unmanned aircraft routine access to the National
       Airspace System. This effort will focus initially on Government-owned and
       -operated UAS aircraft, followed by private-sector UAS.

Missed Opportunities Could Further Impact the Multi-Agency
Approach for NextGen
FAA is missing several opportunities to coordinate with partner agencies and
strengthen its ability to reduce NextGen cost and schedule risks. Of key concern
is FAA’s failure to coordinate with DOD to fully leverage its vast research and
development base. Not only is a multi-agency approach for NextGen required by
law, better coordination with DOD and other partner agencies could also facilitate
technology transfer and capability verification and validation.

DOD is the lead agency in developing NextGen’s network-centric operations 20
and is working with FAA and the JPDO on surveillance issues. DOD also
contributes to NextGen as a member on various committees, boards, and working
groups. However, neither FAA nor the JPDO have fully assessed DOD’s vast
research and development portfolio and existing capabilities to determine their
applicability to NextGen. DOD’s experience with enterprise architecture
development, large-scale systems integration, net centric operations, and overall
management of high-risk efforts could prove useful. For example, leveraging
DOD’s work on a satellite-based Joint Precision Landing System (JPALS) 21 could
inform FAA’s development of capabilities to meet NextGen requirements and
potentially reduce costs. Other DOD research and development areas that could
help FAA improve NextGen outcomes include surveillance and security of
aircraft, communications, and navigation. While DOD officials have stated that
the Department is willing to provide access to its existing capabilities and ongoing
research and development, FAA has yet to conduct a meaningful inventory of
DOD’s research base. According to FAA officials, the Agency’s failure to
leverage these resources is due in part to a culture that is reluctant to embrace
technologies not developed in-house.

Ensuring adequate mechanisms and funding to facilitate the transfer of
technologies among NextGen partners may also be inadequate, according to an
FAA/JPDO assessment. FAA has established research transition teams to address
technology transfer issues with NASA and review plans for NextGen. Thus far
these teams have reviewed plans and, on a limited basis, begun transferring
technology between the two agencies. For example, NASA’s research into
improved arrival routes and an initial set of software algorithms for enhancing the

20
     DOD’s Network-Centric Operations is a robust network of information for geographically dispersed forces.
21
     The Joint Precision Approach and Landing System (JPALS) is a precision satellite-based landing system that will
     allow aircraft to land on any suitable land or sea-based surface worldwide, while minimizing the impact to airfield
     operations because of a low ceiling or poor visibility.
                                                                                   14


flow of air traffic is being transitioned to FAA for further testing. However, FAA
has not formed similar teams or methods for other agencies, such as the
Department of Commerce and DOD to accomplish technology transfer. We have
found that “entrance and exit” criteria, with clearly defined hand-off points for
research projects being developed by other agencies, will aid in determining what
it will take to transition new concepts and technologies into daily operations.
Additionally, JPDO officials have stated that while research transition teams make
sense for the FAA/NASA relationship, this approach may not be ideal for
transitioning research and development and technology from other partner
agencies. We agree, but FAA must develop appropriate approaches to effectively
obtain technologies or research from other partner agencies to support NextGen.

Finally, FAA has not coordinated with partner agencies to develop a framework
for verifying and validating NextGen capabilities. Because concept and system
validation could take more than 3 years after development is completed and before
the acquisition cycle begins, coordination is needed to better ensure systems can
fulfill their intended use in the National Airspace System. An FAA task force has
developed some initial guidelines that will require agreement among JPDO partner
agencies.

FAA FACES CHALLENGES IN ENGAGING THE PRIVATE
SECTOR TO DEVELOP NEXTGEN AND RELATED POLICIES
FAA and industry have faced long-standing challenges in coordinating their
NextGen efforts. FAA and the JPDO have worked to involve industry participants
and representatives in key planning efforts, including the NextGen Institute, to
gain access to private sector expertise. However, the Institute has not lived up to
original expectations due to a lack of clear focus and priorities. While the large
number of industry stakeholders and evolution of NextGen have made it difficult
to reach consensus in NextGen planning and demonstration, successful
implementation of NextGen depends on stakeholders’ involvement in the
development of NextGen policies, procedures, and decisions.

FAA Has Not Clearly Defined the Role of the NextGen Institute
In March 2005, FAA established the NextGen Institute to provide the JPDO with
access to private sector expertise, tools, and facilities in developing NextGen. The
Institute was also expected to be used as a contracting mechanism to accelerate the
development of NextGen technologies outside of the traditional Government
acquisition process. However, FAA has failed to clearly articulate the Institute’s
responsibilities, creating the potential for duplicative efforts between the Institute
                                                                                                          15


and other private sector organizations, such as RTCA 22 and the MITRE
Corporation. 23 FAA’s reorganization of the JPDO, which placed it within FAA’s
Air Traffic Organization, has complicated FAA’s attempts to better define the
Institute’s role. To date, FAA has not reassessed the Institute’s role to, at a
minimum, determine whether it is still needed or what role it should play in light
of other private sector organizations’ contributions.

FAA Is Engaging the Private Sector Through RTCA, but Significant
Policy Issues Remain Unresolved
In an effort to gain stakeholder acceptance and solidify commitments from both
Government and industry, FAA asked RTCA to undertake a new task force, the
NextGen Mid-Term Implementation Task Force. The group was tasked with
forging a consensus on the NextGen operational improvements planned for the
2012 to 2018 timeframe and to develop business cases to support and implement
mid-term capabilities. RTCA delivered its final report to FAA on
September 9, 2009. 24

In addition to making 28 specific recommendations, the Task Force report noted
the following key messages regarding its view of NextGen:

     • Users are willing to support FAA Communication Navigation Surveillance
       infrastructure programs that require user investment only if those programs
       provide a clear and unambiguous path to immediate and tangible benefits to the
       users.

     • FAA should primarily focus on delivering near-term operational benefits,
       rather than the delivery of infrastructure, as the best way for stakeholders to
       gain confidence in FAA plans and to encourage users to invest in NextGen
       equipage. Industry and FAA must agree on common metrics to measure
       achievement of benefits.

     • FAA should be delivering benefits and assign responsibility, accountability,
       authority, and funding within the Agency to accomplish all the associated and
       necessary non-infrastructure tasks (i.e., development of procedures and policy)
       critical to achieving those benefits.

     • FAA must continue to support the efforts of the Task Force and keep
       stakeholders as active participants in the planning, implementation, and
       measurement of the report recommendations.

22
     The RTCA is a private, not-for-profit corporation that develops consensus-based recommendations regarding
     communications, navigation, surveillance, and air traffic management system issues.
23
     MITRE Corporation functions as FAA’s federally funded research and development center.
24
     RTCA – “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.
                                                                                  16


The task force findings and recommendations are consistent with our work and
identify several new areas that will require FAA’s attention, including adjustments
to current Agency plans and budgets. Airspace users generally view the task force
recommendations as a stepping stone for NextGen that will help FAA reduce risk
and build confidence with stakeholders. FAA supports the task force
recommendations and is developing an implementation plan.

NextGen Demonstration Projects Offer Potential To Reduce Risk, but
Lack Coordination and Are Not Outcome-Based
The private sector is participating with FAA in several NextGen demonstration
projects to validate NextGen concepts from research and development to
implementation. While our work found that these projects have merit and can help
reduce risk with NextGen, stakeholders have concerns that the demonstrations are
not coordinated or outcome-focused, may not provide a clear path to
implementation or fail to leave new capabilities behind.

For fiscal years 2008 through 2010, Congress provided a total of $112 million to
fund demonstration projects. FAA is pursuing more than 10 demonstrations,
excluding projects within other major efforts like ADS-B. These demonstrations
are managed by FAA’s Office for Research and Technology Development. FAA
demonstrations include developing improvements for surface management
through leveraging existing systems like FAA’s Airport Surface Detection
Equipment – Model X (ASDE-X). This demonstration relies on a system that
was originally envisioned to help prevent accidents on runways. FAA is now
relying on ASDE-X to help boost airport capacity by improving surface situational
awareness and better managing the movement of aircraft on the ground. Some
airlines are participating with FAA at John F. Kennedy International Airport and
Memphis International Airport on this effort. However, while this project offers
potential to improve surface operations, the key is ensuring research translates into
meaningful information that can be shared with stakeholders and used to improve
efficiency and reduce delays.

As we recommended in February 2007, with respect to NextGen demonstration
projects, FAA needs to develop sufficient data to establish a path for certifying
new systems and identify the full range of adjustments to policies and procedures
to get benefits for airspace users. As FAA works to develop these data, it must
also clearly define the expected outcomes from the demonstration projects for
industry participants. Our analysis and discussions with FAA officials found that
the Agency could gain valuable knowledge and concept validation from the
demonstrations, but it remains unclear how these identified benefits will be
transitioned from research and development to an operational capability that
airspace users can benefit from at specific locations.
                                                                                   17


CONCLUSION
NextGen is the most complex effort FAA has embarked upon, and its success is
vital to revolutionizing our aviation system. While FAA is making progress in
addressing NextGen’s challenges, a number of critical actions are still needed for
successful implementation. Among them, and perhaps most important in the near
term, is setting realistic expectations for what can be achieved in the midterm and
assessing the associated risks. In addition, maximizing a multi-agency approach
that leverages other agencies’ research and aligns resources will pay dividends and
help reduce costs. Until then, NextGen may not deliver the expected long-term
benefits and ultimately puts billions of taxpayer dollars at risk.

RECOMMENDATIONS
We have made a number of recommendations over the years to reduce risk with
FAA’s major acquisitions in the areas of defining requirements, managing
NextGen investments as portfolios, and determining the skill sets required to
execute NextGen. We strongly encourage FAA to follow through on actions
underway to address those recommendations. In this report, to further reduce risk,
strengthen the multi-agency approach to systems development, and enhance
collaboration with the private sector in policy matters, we recommend that FAA
take the following actions to advance NextGen.

 1. Conduct an assessment of risks associated with implementing multiple
    NextGen capabilities concurrently in the midterm and what can reasonably
    be accomplished. This assessment and risk mitigation plan should:

     a. Document interdependencies between systems, procedures, and training
        and include strategies to address them.

     b. Identify critical path issues or decisions in terms of airspace changes and
        changes in roles and responsibilities for controllers and pilots that directly
        affect achieving NextGen benefits.

     c. Set realistic benchmarks that establish when training for controllers and
        pilots on new aircraft avionics, ground systems, and procedures will be
        required and where they need to be provided.

 2. Assess safety and implementation risks of mixed-equipage operations and
    develop corresponding mitigation strategies and policies.

 3. Develop a plan to effectively review and identify research and technologies
    from DOD’s research and development portfolio that can be used for
    NextGen efforts and establish a mechanism to coordinate and transfer this
                                                                                 18


     information to the appropriate FAA program or development offices for
     consideration.

 4. Expand the NextGen Research Transition Team concept that has been
    developed for NASA and FAA into mechanisms that perform the same
    function with other partner agencies.

 5. Reassess the current role and continued need for the NextGen Institute. If it
    is determined as a needed resource, redefine the roles and responsibilities of
    the Institute to avoid duplication with other private sector organizations, such
    as RTCA.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with the Air Traffic Organization’s Senior
Vice President for NextGen and Operations Planning and the Director of the
JPDO, and they agreed with our findings and recommendations. We provided
FAA with our draft report on April 14, 2010, and received its formal response on
May 26, 2010. FAA concurred with all five of our recommendations and
proposed appropriate action plans but did not provide target completion dates for
recommendations 1 and 4. FAA’s response is included in its entirety as an
appendix to this report.

With regard to recommendation 1, FAA stated that a number of actions are
underway.        These include developing and refining NextGen segment
implementation plans in response to the recent RTCA Task Force report on
NextGen operational improvements for the near and midterm. These plans will
address interdependencies among programs, critical path issues, and transition
segment benchmarks. FAA also stated that it is developing an enhanced cross-
agency approach with a strong emphasis on systems engineering for allocating
NextGen capabilities to various systems. We believe this approach—if properly
implemented—has merit because it will help align NextGen plans, architecture
development efforts, and various program offices that will be responsible for
establishing new NextGen capabilities. However, to measure progress with these
actions, FAA needs to provide our office with target action dates for finalizing and
implementing this new approach and clarify which NextGen planning documents
will identify critical path issues and transition benchmarks.

In response to recommendation 4, FAA states that the JPDO is applying the
concept of research transition teams to other partner agencies beyond NASA,
including the Department of Commerce for weather-related initiatives. Further,
FAA stated that the JPDO will annually assess where research transition teams or
                                                                                19


other mechanisms can be used. FAA believes this recommendation should be
closed. While we agree that positive steps are being taken, FAA needs to provide
specific dates for when it expects to establish mechanisms to successfully
transition technologies from partner agencies. This is particularly important since
FAA has not yet done a full inventory of DOD’s vast research and development
base. As noted in our report, technology transfer is critical to NextGen for
reducing costs, limiting risk, and preventing duplicative efforts.

ACTIONS REQUIRED
FAA’s planned actions for all five recommendations are responsive, and its target
action dates for recommendations 2, 3, and 5 are appropriate. However, in
accordance with DOT Order 8000.1C, we request that FAA provide our office,
within 30 days of this report, with target action dates for recommendations 1 and
4. All five recommendations will remain open pending receipt of documentary
evidence that appropriate corrective actions are complete.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions regarding this report, please contact me at (202)
366-1427, or Matthew E. Hampton, Deputy Assistant Inspector General for
Aviation and Special Program Audits, at (202) 366-0500.

                                        #

cc: FAA Assistant Administrator for Financial Services/CFO
    FAA Deputy Administrator
    FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-100
                                                                                                                                                                              20



EXHIBIT A. NEXTGEN PRIOR AUDIT RECOMMENDATION STATUS
  JPDO: Actions Needed To Reduce Risks with the Next Generation Air                                                            Status
             Transportation System – February 12, 2007
                     Report Recommendations
1. Report NextGen cost data along three vectors developmental efforts, adjustments to      Costs to develop and implement NextGen remain uncertain. A recent
existing programs, and NextGen implementation—when reporting NextGen financial             analysis suggests that the cost of NextGen could be several times the
requirements to Congress and stakeholders.                                                 projected estimate of $40 billion and some advanced capabilities would not
                                                                                           be implemented until the 2035 timeframe. An integrated NextGen budget
                                                                                           document that captures NextGen expenditures across all partner agencies is
                                                                                           still under development. FAA has referred this action to the DOT NextGen
AV-2007-31                                                                                 Senior Advisor to the Secretary in coordination with the JPDO for
                                                                                           development of the integrated budget with the partner agencies.
2. Determine the level of technical maturity of NASA’s research projects developed for     FAA has worked with NASA and established Research Transition Teams to
NextGen initiatives. If NASA will be unable to provide research projects at a level that   address the successful transfer of research and development work from
FAA can quickly move to prototype development, then FAA will need to develop               NASA to FAA. NASA has changed its position of doing only fundamental
contingency plans for how this research and development will be conducted, managed,        research since our February 2007 report and has stated it will deliver
and paid for.                                                                              projects at a more mature level on a case-by-case basis. While progress in
                                                                                           developing the teams has advanced, the teams have yet to actually transfer
AV-2007-31                                                                                 research between the two agencies for further development or use in a major
                                                                                           acquisition.
3. Review existing ongoing modernization programs to determine if they are still           FAA is still assessing NextGen impact on existing programs and efforts to
needed and, if so, what adjustments in cost, schedule, and performance parameters will     identify initial requirements for future automation systems is still 1 to
be needed.                                                                                 2 years away. Further, FAA pointed out that after requirements are
                                                                                           established, it will take at least an additional year to establish cost and
AV-2007-31                                                                                 schedule baselines before approval for acquisition of these new programs
                                                                                           could begin.
4. Include information in the annual JPDO progress report on specific research projects    FAA has not published a congressionally directed document since the FY
with budget data for FAA developmental efforts as well as budget data of other             2006 Progress Report. The NextGen Integration and Implementation Office
agencies that are being leveraged and specify how the ongoing research is supporting       is currently producing an annual NextGen Integration Plan (formerly known
the JPDO.                                                                                  as the Operational Evolution Plan), which the Agency maintains is a
                                                                                           substitute for the progress report. FAA does not publish detailed budget
AV-2007-31                                                                                 data on partner agency contributions to NextGen.
5. Determine what skill sets and expertise, with respect to software development and       FAA commissioned the National Academy of Public Administration
system integration, will be required by the ATO and JPDO and how they will be              (NAPA) to conduct a study to determine what skills would be required to
obtained to manage and execute NextGen initiatives.                                        implement NextGen. NAPA issued its final report in September 2008. The
                                                                                           report identified the skills needed to design, develop, test/evaluate, integrate
                                                                                           and implement NextGen programs. Some of these include, program/project
AV-2007-31                                                                                 management, systems engineering management, integration and verification,
                                                                                           and contract administration.




Exhibit A. NextGen Prior Audit Recommendation Status
                                                                                                                                                                           21

  JPDO: Actions Needed To Reduce Risks with the Next Generation Air                                                           Status
             Transportation System – February 12, 2007
                     Report Recommendations
6. In planned NextGen demonstration projects, develop sufficient data to establish a        FAA received $28 million in FY 2009 and $34 million for FY 2010
path for certifying new systems and identify the full range of adjustments to policies      specifically for NextGen demonstration projects. However, stakeholders are
and procedures needed to get benefits.                                                      concerned that the demonstrations are not coordinated or outcome-focused,
                                                                                            may not provide a clear path to implementation, and do not leave
                                                                                            capabilities behind. FAA needs to clearly define the expected outcomes
AV-2007-31                                                                                  from the demonstration projects and develop data to establish a path for
                                                                                            certification of new systems.
7. Continue to develop and refine procedures that address conflict of interest issues       FAA and the JPDO continue to assess conflict of interest issues. FAA is
with JPDO initiatives and conduct annual reviews of the matter as the role of the JPDO      providing annual refresher training to private sector participants. The
evolves from planning to implementation.                                                    placement of the JPDO within the ATO underscores the need to assess
                                                                                            conflict of interest issues.
AV-2007-031
8. Use technology readiness levels in assessing the maturity of research conducted at       In addition to the RTT work described in recommendation 2 above, the
other agencies to help speed technology transfer and the introduction of new capabilities   JPDO expected to complete work with NASA and the Department of
into the National Airspace System.                                                          Commerce to define “exit criteria” for all supporting research activities by
                                                                                            September 2009, to ensure appropriate level of maturity of research for
AV-2007-031                                                                                 transition from research to possible application development. In FY 2010,
                                                                                            FAA will work on ensuring that “receiving criteria” (org. receiving
                                                                                            completed research) is matched to research agency “exit criteria.”
9. Fund targeted human factors research to ensure that the changing roles of controllers    This was identified as a gap in 2008. FAA and NASA continue to pursue
and pilots envisioned by the JPDO can safely be accommodated. This will require a re-       the work. However, efforts still need to be prioritized and aligned across
prioritization of ongoing efforts at FAA and close cooperation with NASA, which also        partner agencies. Important questions about the role of automation for
conducts human factors research.                                                            controllers and pilots remain unresolved. FAA cannot advance NextGen
                                                                                            without an effective human factors effort.
AV-2007-031




Exhibit A. NextGen Prior Audit Recommendation Status
                                                                                                                                                                           22

   Traffic Control Modernization: FAA Faces Challenges in Managing Ongoing                                                    Status
              Projects, Sustaining Existing Facilities, and Introducing
                          New Capabilities – April 14, 2008
                              Report Recommendations
1. Develop written criteria for the selection of milestone metrics that are used for       FAA has developed standard operating procedures and documented the
tracking progress with major acquisitions and reported in Agency plans and reports.        process and criteria for selecting programs for inclusion in the Flight Plan.

AV-2008-049
2. Develop and report on a new set of metrics for measuring progress with NextGen          FAA has recognized the need for improved measures, but this remains a
initiatives that focus on the delivery of a new capability with respect to enhancing       work in progress. FAA and the JPDO are working to develop a suite of
capacity, boosting productivity, or reducing Agency operating costs.                       performance measures for the safety, capacity, and productivity impacts of
                                                                                           NextGen. FAA anticipates that the full suite of measures will be complete
AV-2008-049                                                                                later in 2010.
3. Complete a gap analysis of the NAS enterprise architecture that closely examines        FAA efforts to complete a gap analysis are underway. According to FAA, it
current systems (the “as is”) and the planned NextGen enterprise architecture (the “to     may be another 2 years to establish firm requirements for NextGen
be”) and develop and establish priorities.                                                 automation efforts. FAA’s analysis thus far shows that there are major gaps
                                                                                           with respect for automation. We will continue to monitor FAA progress on
AV-2008-049                                                                                the gap analysis and the development of the mid-term architecture.
4. Once the gap analysis is completed, develop an interim architecture that details what   FAA has developed a mid-term Enterprise Architecture for the 2018
can be accomplished in the 2012 timeframe that will allow FAA to more accurately           timeframe, but cost and schedule for key efforts remain uncertain.
determine costs and other factors required for NextGen.

AV-2008-049
5. Use the interim architecture as the basis for an integrated program plan that           FAA’s mid-term Enterprise Architecture is being used to shape the Agency
establishes an executable program for the NextGen capabilities. This effort should         NextGen Implementation Plan. Plans thus far do not provide detail for cost,
include detailed cost, schedule, requirements, acquisition strategies, risk management,    schedule, requirements, acquisition strategies, risk management, and the
and the supporting organizational structures to execute the integrated program.            supporting organizational structures to execute the integrated program.

AV-2008-049




Exhibit A. NextGen Prior Audit Recommendation Status
                                                                                   23



EXHIBIT B. SCOPE AND METHODOLOGY
At the request of the Chairmen and Ranking Members of the House Transportation
and Infrastructure Committee and the House Aviation Subcommittee, we initiated
a review on FAA’s progress in transitioning to NextGen. Specifically, we focused
on (1) key actions needed to successfully implement NextGen, (2) FAA and
partner agencies’ progress in leveraging resources and budgets, and (3) FAA’s
progress in engaging the private sector in shaping policy issues. We were also
asked to report on FAA’s progress in implementing our past NextGen-related
recommendations.

To review key actions needed to successfully implement NextGen, we reviewed
documents related to NextGen implementation, such as the National Airspace
System Enterprise Architecture, the NextGen Implementation Plan, and the
NextGen Integrated Work Plan. We also reviewed pertinent NextGen legislation
such as FAA Reauthorization Act of FY 2004 (Vision 100) and current proposed
reauthorization legislation. We reviewed independent studies on NextGen issues
commissioned by FAA from the National Academy of Public Administration and
Price Waterhouse/Coopers. We also interviewed officials from FAA Air Traffic
Organization (ATO)’s NextGen and Operations Planning service unit responsible
for NextGen implementation. The service unit offices include the JPDO, the
NextGen Integration and Implementation Office, and the Research and
Technology Development Office.

To determine FAA and partner agencies’ progress in leveraging resources and
budgets, we reviewed FAA budget documentation pertaining to NextGen, such as
recent budget submissions, capital investment plans, and research and
development plans. We also interviewed ATO Finance officials to gain insight on
FAA budget formulation and NextGen partner agencies to gain insights into their
NextGen research and capital activities. The partner agencies were the National
Aeronautics and Space Administration, the Department of Commerce’s National
Oceanic and Atmospheric Administration, the Department of Homeland Security,
and the Department of Defense.

To determine FAA’s efforts to engage the private sector in shaping NextGen
policy issues, we interviewed a cross-section of key organizations based on their
participation in JPDO NextGen working groups. These organizations included
airline industry associations, aircraft manufacturers associations, and aircraft trade
unions. We also interviewed officials from the JPDO’s NextGen Institute and
coordinated with major FAA advisory bodies such as RTCA Inc, and the ADS-B
Aviation Rulemaking Committee.




Exhibit B. Scope and Methodology
                                                                               24


To assess FAA’s progress towards our earlier recommendations on NextGen
implementation, we conducted interviews with JPDO officials to obtain status
information on their progress in addressing nine recommendations from a DOT
OIG report on the JPDO issued on February 2007 and similar recommendations
from a DOT OIG report on air traffic control modernization issued April 2008.

We conducted this performance audit from May 2008 through March 2010. We
performed our work in accordance with Government Auditing Standards as
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts.




Exhibit B. Scope and Methodology
                                                      25



EXHIBIT C. ACTIVITIES VISITED OR CONTACTED
 DOT/OST

   NextGen Senior DOT Advisor to the Secretary

 FAA

  Air Traffic Organization Offices
   Chief Operating Officer
   Data Communications
   En Route Automation Modernization Program Office
   FAA Chief Architect
   Investment and Planning Analysis
   NAS Chief Scientist
   NextGen Integration and Implementation Office
   NextGen Research &
     Development/Demonstrations
   NextGen Portfolio Management
   Senior Vice President, NextGen
    Operations and Planning
   Terminal Automation Modernization and
    Replacement
   Wide Area Augmentation System

  Joint Planning and Development Offices
   Director, JPDO
   JPDO Chief Architect
   Modeling and Analysis Team
   NextGen Institute
   Research Transition Teams

  Other FAA/Unions
   National Air Traffic Controllers Association
   Professional Airways System Specialists

  FAA Contractors/JPDO Partners
   CAASD/MITRE
   Department of Homeland Security

Exhibit C. Acti vities Visited or Contacted
                                                   26


   Department of Defense
   National Aeronautics and Space Administration
   National Oceanographic and Atmospheric
    Administration
   National Weather Service
   RTCA

 Industry Groups

  Industry Associations
    Aerospace Industries Association
    Aircraft Owners and Pilots Association
    Air Line Pilots Association
    Air Transport Association
    Aviation Electronics Association
    Aviation Management Associates
    Helicopter Association International

  Companies
   Garmin
   Lockheed Martin
   Raytheon

  Other Stakeholders
   Colorado Division of Aeronautics
   Office of Management and Budget




Exhibit C. Acti vities Visited or Contacted
                                                                      27



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                Title

Matthew E. Hampton                Deputy Assistant Inspector General
                                  for Aviation and Special Program Audits

Barry DeWeese                     Program Director

Kevin Dorsey                      Program Director

Joseph J. Hance                   Project Manager

Arnett Sanders                    Senior Auditor (Lead Auditor)

Victoria J. Smith                 Analyst

Ryan Sanders                      Analyst

Arthur Shantz                     Technical Advisor for Aviation Research
                                  and Acquisitions

Andrea Nossaman                   Writer/Editor




Exhibit D. Major Contributors to This Report
                                                                                               28



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          May 26, 2010
To:            Lou Dixon, Assistant Inspector General for Aviation and Special Program
               Audits
From:          Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by    Anthony Williams, x79000
Subject:       OIG Draft Report: Timely Actions Needed To Advance the Next Generation
               Air Transportation System

NextGen is a comprehensive overhaul of our national airspace system to make air travel more
convenient and dependable, while ensuring flights are safe and secure. It will make air travel more
predictable, with fewer delays, less time waiting on the ground and holding in the air, as well as
provide more flexibility to get around weather problems.

FAA recognizes the complexities of NextGen design and implementation, and from the very
beginning has been working to identify system risks and to develop strategic plans to address
those risks. The FAA released the annual update to its NextGen Implementation Plan in March
2010. The plan provides an overview of the FAA’s ongoing transition to NextGen, laying out the
agency’s vision now and into the mid-term, which is defined as 2012-2018. It further identifies
the FAA’s goals for technology and program deployment and the commitments FAA has made in
support of that vision.

The FAA remains confident it will achieve the vision set out in the NextGen plan, and is prepared
to face the challenges that will come with making NextGen a reality. Undertaking NextGen is
extremely complex, in part because systems in various stages of development and maturity are
interdependent and will be implemented in a variety of time frames. NextGen’s increasing
dependence on aircraft-centric capabilities means that we must rely on operators’ willingness to
equip. We believe there is a solid business case for air carriers to equip their aircraft but we
continue to investigate possible ways to incentivize equipage. The true benefits of NextGen will
not be realized until a sufficient percentage of aircraft have the necessary equipment.

The following is FAA’s response to each of the recommendations.




Appendix. Agency Comments
                                                                                                 29


OIG Recommendation 1: Conduct an assessment of the risks associated with implementing
multiple NextGen capabilities concurrently in the mid-term and what can reasonably be
accomplished. This assessment and risk mitigation plan should:

a. Document interdependencies between systems, procedures, and training and include strategies
to address them.

FAA response: Concur. In response to the complexity of the NextGen implementation, the FAA
improved its ability to analyze and manage interdependencies from a strategic, enterprise level to
the programmatic level. The mid-term enterprise architecture contains the interdependences
between systems, procedures, training and pacing issues that are used to develop the NextGen and
individual program plans. The FAA continues to refine detailed programmatic plans. The
planning for the midterm is divided into sequential segments for implementation. These mid-term
implementation plans address the recommendations from RTCA NextGen Implementation Task
Force. These plans include the associated costs and benefits. The plans also document the policy,
training, and procedural implications as they are known at the time.

In addition, the FAA has identified the need to put additional system engineering focus on the
inter-program, inter-domain issues. The FAA is developing an enhanced cross-FAA approach to
refining the identification, analysis, and recommended resolution of the allocation of NextGen
capabilities to systems. This updated approach will support the NextGen Integration and
Implementation Office, the Enterprise Architecture, and the program offices in the planning and
the execution of the cross-system or cross-domain engineering.

The FAA has developed the detailed programmatic planning for the initial segment and will
continue to refine it as we move forward. This initial segment will address programmatic,
training, and procedural dependencies as they are now. The programmatic, training and
procedural development will be refined as individual programs complete investment analysis and
enter solution implementation. The development of the second sequential segment is underway.

b. Identify critical path issues or decisions in terms of airspace changes and changes in roles and
responsibilities for controllers and pilots that directly affect achieving NextGen benefits.

FAA response: Concur. While there are no foreseen changes in roles and responsibilities for
controllers and pilots such as self-separation airspace or fully automated air traffic control now
through the mid-term, there are major changes to the methods and support mechanisms by which
pilots and controllers will operate. These changes include the use of data communications for
trajectory operations, the increased use of the flight management system (FMS) and flight deck
systems in executing merging and spacing, the delivery of conflict resolution advisories to the
controller by the automation, and the use of 3D RNAV/RNP. As part of the NextGen portfolio,
there are ongoing activities in the NextGen R&D and the NextGen Pre-Implementation Solution
Set Activities to address for example the human factors, display, certification, and training issues
related to these new methods and tools. The NAS Enterprise Architecture “green lanes”- the
support and mission activity portions of the roadmaps- are used to link these activities to NAS
investment decisions and the integration tables of the architecture are used to identify key linkages
and requirements.

These critical path items and decisions are being further refined in the more detailed NextGen
segment implementation plans discussed above.


Appendix. Agency Comments
                                                                                                   30


c. Set realistic benchmarks that establish when training for controllers and pilots on new aircraft
avionics and ground systems, and procedures will be required and where they need to be
provided.

FAA Response: Concur. The NextGen operational requirements describing NextGen capabilities
in the mid-term are documented in the NextGen segment implementation plans. The plans
incorporate timelines for systems acquisition and implementation, procedure and airspace
development, certification and training. Also, recently a representative from the National Air
Traffic Controllers Association was added to the NextGen Integration & Implementation Office to
provide technical expertise and assist in identifying areas where increased controller involvement
is warranted.

Schedule information for benchmarks and training are documented as part of the NextGen
segment implementation plans. The plan for the first five years has been developed and will
continue to be refined. Benchmarks, procedures and training locations are part of the acquisition
process and will be addressed by each program.

OIG Recommendation 2: Assess safety and implementation risk of mixed-equipage operations
and develop corresponding mitigation strategies and policies.

FAA Response: Concur. The FAA operates under a Safety Management System (SMS) which
requires the assessment of all changes before they become operational. The Associate
Administrator for Aviation Safety and the Chief Operating Officer chair an SMS implementation
Steering Committee to ensure the proper application of the SMS process.

FAA is further supplementing this process with regard to NextGen implementation with an
integrated safety assessment process to further mitigate potential implementation risks. A cross-
agency team, led by an individual assigned to the NextGen Integration and Implementation
Office, is responsible for coordinating a consistent approach, as well as the timely integration and
execution of safety assessments.

The FAA will develop a mixed performance/equipage strategy to define aircraft performance
requirements, parameters, risks and sensitivities that need to be addressed when controllers and
pilots are asked to perform in a mixed performance/equipage environment. The document will be
available by January 2011.

OIG Recommendation 3: Develop a plan to effectively review and identify research and
technologies from DOD’s research and development portfolio that can be used for NextGen
efforts and establish a mechanism to coordinate and transfer this information to the appropriate
FAA program or development offices for consideration.

FAA Response: Concur. The Joint Planning and Development Office (JPDO) has existing
mechanisms in place to facilitate the exchange of research related information relating to NextGen
through the Air Force Lead Service Organization (LSO), which is responsible for Department of
Defense (DoD) NextGen activities. As such, the Air Force LSO has the responsibility for
interactions between DoD and NextGen, including those with regard to technology transfer. The
DoD also has designated a Chief Architect who participates in JPDO Interagency Architecture
Engineering and Net-Centric Operations planning. These contacts are intended in part, to enable
NextGen to benefit from research activities at DoD.


Appendix. Agency Comments
                                                                                                 31



The JPDO, together with the FAA and the Air Force LSO, will enhance its efforts to ensure that
NextGen benefits from related research at DoD. Specifically, JPDO will outline its plan by
September 2010 to collaborate with DoD to capitalize on its research portfolio and determine
which technologies may be relevant to NextGen. This plan will include a process to identify key
DoD research, development and acquisition activities such as capabilities for tracking of non-
cooperative aircraft and information data sharing.

OIG Recommendation 4: Expand the NextGen Research Transition Team concept that has been
developed for NASA and FAA into mechanisms that perform the same function with other partner
agencies.

FAA Response: Concur. The JPDO is already applying the Research Transition Team (RTT)
concept to other partner agencies in an effort to expedite the implementation of Next Gen.
The current NASA research program responds to the NextGen Concept of Operations and the
research needs identified by the JPDO. Four NASA RTT’s were established to facilitate the
transition of NASA research to the FAA in a way that would expedite NextGen implementation.
The RTT documents the FAA’s plan for integrating the research results to be delivered into its
NextGen implementation program. This documentation includes identifying any additional
research or pre-operational work that is envisioned beyond the NASA research, so that the FAA
can plan and budget for it in a timely manner.

The JPDO is expanding the use of this concept now, working with the Department of Commerce
through the National Oceanic and Atmospheric Administration, FAA and DoD on developing a
vision for aviation weather management that is focused on the aviation user. The JPDO facilitates
the NextGen Executive Weather Panel, which oversaw the development of a joint program plan.
FAA and NOAA will work out the specific technical requirements and handoff under this joint
plan. The JPDO will annually assess where RTT’s or other types of transition mechanisms can be
utilized to transition research. While these actions will be conducted on a continuous basis, we
maintain that actions to date demonstrate FAA’s commitment to this process, and believe this
recommendation can be closed.

OIG Recommendation 5: Reassess the current role and continued need for the NextGen Institute.
If it is determined as a needed resource, redefine the roles and responsibilities of the Institute to
avoid duplication with other private sector organizations, such as RTCA.

FAA Response: Concur. The NextGen Institute was developed to provide a streamlined
mechanism for private sector collaboration with the JPDO in NextGen planning. The primary
mechanism for collaboration is through pro-bono participation of subject matter experts in domain
specific working groups (for example - safety, security, aircraft, airports, etc.). This mechanism
provided substantial and unique value in the development of the NextGen Concept of Operations
and the integrated plan. While private sector engagement is a key element in the development of
NextGen, the FAA is in full agreement with the need to revisit the roles and responsibilities of the
NextGen Institute.

NextGen is entering the program implementation phase. Therefore, our model for private sector
collaboration will also change. Subject matter experts will now be needed in cross-functional
studies, which blend expertise from airports, aircraft and operations, in order to identify the full
range of possibilities within NextGen concepts or policies. The JPDO has briefed this transition to


Appendix. Agency Comments
                                                                                               32


the Institute Management Council that oversees the NextGen Institute and plans to work with the
Council to evaluate the best approach to private sector collaboration on interagency research,
concept and policy development. The JPDO is also working with the FAA to fully assess a range
of stakeholder engagement forums, including the RTCA, to ensure that appropriate means of
engagement are available for both near- and long-term NextGen activities. The JPDO assessment
will be conducted this summer so that changes can be implemented in fiscal year 2011.


                                            - - - -

We appreciate this opportunity to review and comment on the OIG draft report. Separately, we
provided the OIG with specific and technical comments on the draft report.




Appendix. Agency Comments
